No.

gfl-8911
IN THE

SUPREME COURT OF THE UNITED STATES

DIMAS ALFARO-GRANADOS

Tty?

— PETITIONER

(Your Name)

vs.
UNITED STATES OF AMERICA — RESPONDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO

UNITED STATES COURT OF APPEALS FOR THE ELEVENTH CIRCUIT
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

DIMAS ALFARO-GRANADOS # 61717-019
(Your Name)
USP Beaumont P.O. Box 26030
(Address)
Beaumont, Texas 77720
(City, State, Zip Code)

RECEIVED
(Phone Number)

JAN 1 3 2021

QUESTION(S) PRESENTED
[1]-

1st Question Presented on Request and Application for COA

Did the appellate court err in denying a certificate of appealability on whether the district
court erred or alternatively abused its discretion in adopting the Magistrate Judge’s finding that
Mr. Alfaro-Granados’ counsel was not ineffective for failing to propound a necessary and
meritorious challenge - based on Miller v. Alabama, 567 U.S. 460 (2012) - to Mr. AlfaroGranados’ prosecution on Counts 2 & 4 for VICAR, where the RICO enterprise pre-dated Mr.
Alfaro-Granados’ 18th Birthday?
[2].

2nd Question Presented on Request and Application for COA

Did the appellate court err in denying a certificate of appealability on whether the district
court erred or alternatively abused its discretion in adopting the Magistrate Judge’s finding that
Mr. Alfaro-Granados’ counsel was not ineffective for failing to raise a necessary and meritorious
objection - based on Miller v. Alabama, 567 U.S. 460 (2012) - to the imposition of
unconstitutional Life sentences on Counts 2 & 4 for VICAR, where the RICO enterprise pre­
dated Mr. Alfaro-Granados’ 18th Birthday?

[3].

3rd Question Presented on Request and Application for COA

Did the appellate court err in denying a certificate of appealability on whether the district
court erred or alternatively abused its discretion in adopting the Magistrate Judge’s finding that
Mr. Alfaro-Granados’ appellate counsel was not ineffective for failing to appeal Mr. AlfaroGranados’ Life sentences as having been imposed in violation of Miller v. Alabama, 567 U.S.
460 (2012)?

LIST OF PARTIES

F3 All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES

United States v. Alfaro-Granados, Case No. 1:10-cr-00086-RWS-ECS-7
U.S. District Court for the Northern District of Georgia. Judgment entered October 13,
2013.
United States v. Alfaro-Granados, No. 13-14994, U.S. Court of Appeals for
the Eleventh Circuit. Judgment entered June 20, 2017.
Alfaro-Granados v. United States, Case No. 1:19-cv-1556, U.S. District
Court for the Northern District of Georgia. §2255 Judgment entered March 16, 2019.
Alfaro-Granados v. United States, No. 20-11581, U.S. Court of Appeals for
the Eleventh Circuit. Judgment denying COA on §2255 motion entered August 27, 2020.

TABLE OF CONTENTS

OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

,4

REASONS FOR GRANTING THE WRIT

5

CONCLUSION

6

INDEX TO APPENDICES

APPENDIX A

Judgment denying COA on §2255 motion entered August 27, 2020 in Alfaro-Granados v.
United States, No. 20-11581

APPENDIX B

§2255 Judgment entered March 16,2019 in Alfaro-Granados v. United States, Case No.
l:19-cv-1556, U.S. District Court for the Northern District of Georgia

APPENDIX C UNITED STATES MAGISTRATE JUDGE’S FINAL REPORT AND
RECOMMENDATION in Alfaro-Granados v. United States, Case No. l:19-cv-1556,
U.S. District Court for the Northern District of Georgia

APPENDIX D
APPENDIX E
APPENDIX F

L_

TABLE OF AUTHORITIES CITED

CASES
In re Vassell, 751 F.23d 267 (4th Cir. 2014)
Miller v. Alabama, 567 U.S. 460 (2012)
United States v. Under Seal, 819 F.3d 715 (4th Cir. 2016)

PAGE NUMBER
5
4, 5,6
5

STATUTES AND RULES

18 U.S.C. §1959(a)

4

28 U.S.C. §2253

5

28 U.S.C. §2255

4,5

OTHER

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

0*3 For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix A
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[xx] is unpublished.
The opinion of the United States district court appears at Appendix B
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[x5} is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the _
appears at Appendix

court
to the petition and is

[ ] reported at
I or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

JURISDICTION

[x* For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was 8/27/2020
M No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____________
and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
--------------------------------- , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

This case involves a federal criminal defendant’s constitutional rights under the Sixth Amendment,
which provides in pertinent part:
In all criminal prosecutions, the accused shall enjoy the right to . . . have the assistance of counsel for
his defense.
This case also involves the application of 28 U.S.C. § 2253(c). 28 U.S.C. § 2253(c) provides that:
(1) Unless a circuit justice or judge issues a certificate of appealability, an appeal may not be taken
to the court of appeals from—
(B) the final order in a proceeding under section 2255.
. . .(2) A certificate of appealability may issue under paragraph
(1) only if the applicant has made a substantial showing of the denial of a constitutional right.

3.

STATEMENT OF THE CASE

Mr. Alfaro-Granados initiated this proceeding by filing a timely collateral attack on the
judgment of the district court via the provisions of 28 U.S.C. §2255 (f)(1) (“§2255”). Mr. AlfaroGranados’ §2255 sought to vacate his convictions and sentences on the bases that: 1) he was
denied the effective assistance of counsel during pre-trial proceedings, at trial, and throughout
the sentencing hearing, as a result of counsel's failure to propound a necessary and
meritorious challenge to Mr. Alfaro-Granados' prosecution on counts 2 & 4 for VICAR, where
the RICO enterprise pre-dated Mr. Alfaro-Granados' 18th birthday. With regard to this claim,
Mr. Alfaro-Granados showed that his former trial level counsel was constitutionally deficient
for failing to move to dismiss counts 2 & 4 and for failing to propound a necessary objection to
imposition of a mandatory term of Life imprisonment on those counts, as clearly foreclosed by
controlling Supreme Court precedent. See Miller v. Alabama. Absent counsel’s deficiencies
there is a reasonable probability that the district court would have dismissed counts 2 & 4 or
sustained the objection and imposed a lesser sentence; and 2) he was denied the effective
assistance of counsel on direct appeal where appellate counsel was deficient for failing to
challenge Mr. Alfaro-Granados’ convictions on counts 2 & 4 and Life sentences on the same
basis. Had counsel presented this challenge on direct review there is a reasonable probability
that Mr. Alfaro-Granados’ convictions on counts 2 & 4 and Life sentences would have been
vacated by this Court.
On May 15, 2020, the United States opposed the motion, arguing that Mr. AlfaroGranados’ former counsel was not ineffective for failing to raise a Miller based challenge to
Mr. Alfaro-Granados’ prosecution and sentencing or on direct appeal, because he was an
adult when he committed a specific act in furtherance of the RICO enterprise.
On July 11, 2019, Mr. Alfaro-Granados filed a reply arguing that the Government’s
conclusion that he was not the victim of ineffective assistance of counsel was specious and
based on their misguidedly narrow interpretation of Miller and its progeny.
On February 20, 2020, the Honorable Catherine M. Salinas, United States Magistrate
Judge issued her Report and Recommendation (“R & R”) that Mr. Alfaro-Granados’s Motion to
Vacate be denied and that no certificate of appealability should issue.
Mr. Alfaro-Granados timely objected to the R & R, specifically objecting to the
recommendation(s) that: A) he “participated as an adult and committed the crimes as an adult,
and the Court properly applied § 1959(a);” B) “[njeither Miller, Roper, nor Under Seal provide
a reason to find that counsel was ineffective;” and C) he was not entitled to COA.
On March 16, 2020, the district court filed an Order, adopting the Magistrate Judge’s
Report over Mr. Alfaro-Granados’ timely objections and denying in all respects his then
pending Motion to Vacate filed pursuant to 28 U.S.C. §2255.
On April 20, 2020, Mr. Alfaro-Granados timely filed his notice of appeal. Shortly
thereafter, Mr. Alfaro-Granados moved the district court for permission to appeal in forma
pauperis, which the district court denied by order dated June 11, 2020.
Mr. Alfaro-Granados unsuccessfully sought COA from the United States Court of
Appeals for the Eleventh Circuit on the same bases as he seeks COA from this Court. The
only difference being that know the errors he sought to raise in the appellate court have been
affirmed by that court.

4.

REASONS FOR GRANTING THE PETITION
Mr. Alfaro-Granados’ §2255 motion sought to vacate his convictions and sentences
on the bases that: 1) his trial level counsel was constitutionally ineffective for failing to object
to his prosecution - where the statute he was charged under mandated a Life sentence
upon his conviction - and the imposition of a constitutionally impermissible mandatory
minimum Life sentence, where the RICO enterprise pre-dated Mr. Alfaro-Granados’ 18th
birthday; and 2) his appellate counsel was constitutionally ineffective for failing to appeal Mr.
Alfaro-Granados’ Life sentences as having been imposed in violation of Miller. Strong
grounds existed for counsel to challenge Mr. Alfaro-Granados’ eligibility for conviction under
a statute which mandates a Life sentence and the imposition of Life sentences, and for an
appellate challenge to those convictions and sentences. The Supreme Court had, prior to
Mr. Alfaro-Granados’ trial, prohibited the imposition of a Life sentence for juvenile conduct.
See Miller v. Alabama, 567 U.S. 460 (2012). Lower courts had interpreted this holding to
foreclose the prosecution of juvenile conduct under the statute which Mr. Alfaro-Granados
was tried under. See, e.g., United States v. Under Seal, 819 F.3d 715 (4th Cir. 2016).
Minimally competent counsel would have recognized that the constitutional
protections of Miller extended to Mr. Alfaro-Granados by virtue of the reality that the RICO
enterprise - membership in which was an element of VICAR - commenced prior to Mr.
Alfaro-Granados’ 18th birthday. Appellate courts had assumed that initiating the course of
criminal conduct when one is under 18 years of age confers status as a juvenile offense
under Miller. See, e.g., In re Vassell, 751 F.3d 267, 269, n. (4th Cir. 2014).
Those same strong grounds demonstrate a reasonable probability that the
sentencing court (as to Ground One) and/or appellate court (as to Ground Two) would have
granted Mr. Alfaro-Granados the relief sought, establishing prejudice from counsel’s deficient
performance. Id. Clearly, these claims of ineffective assistance of counsel in violation of Mr.
Alfaro-Granados’ Sixth Amendment rights are both cognizable under 28 U.S.C. §2255 and
involve a substantial showing of denial of constitutional rights within the meaning of 28
U.S.C. §2253.
The District Court denied Mr. Alfaro-Granados’ §2255 motion, based on two errors of
law, which led to an erroneous assessment of the merits of the ineffective assistance of
counsel claims Mr. Alfaro-Granados presented. First, the District Court erred in adopting,
over Mr. Alfaro-Granados’ specific objection, the R & R’s conclusion that Mr. AlfaroGranados did not enjoy protections under Miller, where the RICO enterprise pre-dated his
18th birthday. This was an error because, as many courts have recognized, the course of
conduct, i.e., the RICO enterprise, began prior to his 18th birthday. See, e.g., In re Vassell,
751 F.3d 267, 269, n. (4th Cir. 2014).
Second, the district court further erred by adopting, once again over Mr. AlfaroGranados’ specific objection, the R & R's finding that the failures of Mr. Alfaro-Granados’ trial
and appellate counsel did rise to the level of ineffective assistance because his claim was
not sufficiently supported by Miller, Roper, or Under Seal. As described, supra, the Supreme
Court’s holding in Miller had been interpreted to foreclose the prosecution of juvenile conduct
under the statute which Mr. Alfaro-Granados was tried under, and on its face foreclosed the
imposition of a mandatory Life sentence for such conduct. These realities show that
counsel’s failures fell below the minimal level of competence - constituting deficient
performance - and were prejudicial.
Mr. Alfaro-Granados respectfully raises threshold issues which meet the
requirements for issuance of a COA on the following questions:

u

[1]. 1st Question Presented on Request and Application for COA
Did the appellate court err in denying a certificate of appealability on whether the district court
erred or alternatively abused its discretion in adopting the Magistrate Judge’s finding that Mr.
Alfaro-Granados counsel was not ineffective for failing to propound a necessary and
mentonous challenge - based on Miller v. Alabama, 567 U.S. 460 (2012) - to Mr Alfaro-

jsszzxsxs*2 & 4 for vicar' where ,he rico e"

[2], 2nd Question Presented on Request and Application for COA
Did the appellate court err in denying a certificate of appealability on whether the district court
erred or alternatively abused its discretion in adopting the Magistrate Judge’s finding that Mr.
Ifaro-Granados counsel was not ineffective for failing to raise a necessary and meritorious
objection - based on Miller v. Alabama, 567 U.S. 460 (2012) - to the imposition of
& 4 for vicar' ’*■" ^ rico
[3]. 3rd Question Presented on Request and Application for COA
Did the appellate court err in denying a certificate of appealability on whether the district court
erred or alternatively abused its discretion in adopting the Magistrate Judge’s finding that Mr.
Alfaro-Granados appellate counsel was not ineffective for failing to appeal Mr. Alfarosentences as havin9 been imposed in violation of Miller v. Alabama, 567 U.S
460 (2012)?

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date:

Xe.Cjbmht*'

: 7 2>£.6

